NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

MAR 23 2021

FOR THE NINTH CIRCUIT
PRAYED,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-35830
P lainti ff-Appel 1 ant,

D.C. No. 4:17-cv-00023-TMB

v.
MEMORANDUM*
U.S. DEPARTMENT OF LABOR, Acting
Secretary of Labor A1 Stewart; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Alaska
Timothy M. Burgess, District Judge, Presiding
Submitted March 16, 2021**
Before:

GRABER, R. NELSON, and HUNSAKER, Circuit Judges.

Prayed appeals pro se from the district court’s judgment dismissing his
Labor Management Reporting and Disclosure Act (“LMRDA”) and First
Amendment action. We have jurisdiction under 28 U.S.C. § 1291. We review de

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

novo. Gingery v. City of Glendale, 831 F.3d 1222, 1226 (9th Cir. 2016) ••
(standing); Dougherty v. City of Covina, 654 F.3d 892, 897 (9th Cir. 2011) (failure
to state a claim). We may affirm on any basis supported by the record. Thompson
v. Paul, 547 F.3d 1055, 1058-59 (9th Cir. 2008). We affirm.
Dismissal of Prayed’s LMRDA Title I equal rights claim against defendants
Alaska Railroad Workers Local 183 (the “Union”) and Bruce M. Shelt (together,
the “Union Defendants”) was proper because Prayed did not allege facts sufficient
to show that the Union Defendants denied him a right guaranteed to other Union
members by limiting his telephonic participation in Union membership meetings or
that any restriction was not subject to the Union’s reasonable rules and regulations.
See 29 U.S.C. § 411(a)(1), (a)(2) (establishing equal rights for members of labor
organizations to attend membership meetings, to assemble with other members,
and to express opinions, subject to reasonable rules); Calhoon v. Harvey, 379 U.S. '
134, 138-39 (1964) (requiring a union member to show that he or she was denied
rights under § 411(a), and that these rights are accorded to other union members).
Dismissal of Prayed’s Title I free speech and association claim against the
Union Defendants was proper because Prayed failed to allege facts sufficient to
show that any alleged retaliatory actions were “a direct result of his decision to
express disagreement with the Union’s leadership.” Casumpang v. Int’l
Longshoremen’s and Warehousemen’s Union, Local 142, 269 F.3d 1042, 1058

2

19-35830

(9th Cir. 2001) (elements of Title I freedom of speech claim).
The district court properly dismissed Prayed’s LMRDA Title I equal rights
and free speech claims against Alaska Railroad Corporation (“ARRC”) because
Prayed failed to allege facts sufficient to show that the denial of access to the
property was unreasonable or not viewpoint neutral, or that any denial of access
was “a direct result of his [or her] decision to express disagreement” with the
union’s leadership. Casumpang, 269 F.3d at 1058; see also Wright v. Incline Vill.
Gen. Improvement Dist., 665 F.3d 1128, 1134 (9th Cir. 2011) (explaining access
rights to government property). To the extent that Prayed alleged a claim under 42
U.S.C. § 1983, the district court properly dismissed any First Amendment claim
against ARRC as untimely. See Butler v. Nat’l Cmty. Renaissance of Cal., 766
F-3d 1191, 1194, 1202-03 (9th Cir. 2014) (setting forth standard of review and
relation back doctrine); Sengupta v. Univ. ofAlaska, 21 P.3d 1240, 1249 (Alaska
2001) (applying Alaska’s two-year statute of limitations for personal injury actions
to § 1983 claims).
Dismissal of Prayed’s LMRDA Title I claims against the United States
Department of Labor was proper because the Department of Labor does not
administer Title I of the LMRDA and does not have authority to remedy the Title I
violations that allegedly occurred during the supervised election. See 29 U.S.C.
§ 521(a) (exempting Title I from the Secretary of Labor’s enforcement authority);

3

19-35830

Finnegan v. Leu, 456 U.S. 431, 439 n.10 (1982) (explaining the legislative history
and intent of exempting Title I from the Secretary of Labor’s enforcement
authority). To the extent that Prayed challenged the Department of Labor’s final
agency action certifying the supervised election, dismissal was proper because
Prayed did not allege facts sufficient to show that the Department of Labor’s
determination of his election protest was “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A).
We reject as unsupported by the record Prayed’s contentions that the district
court denied him due process by awarding costs to the Union Defendants and by
adhering to Federal Rule of Civil Procedure 6(a)(4).
We do not consider arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009). We do not
consider documents and facts not presented to the district court. See United States
v. Elias, 921 F.2d 870, 874 (9th Cir. 1990) (“Documents or facts not presented to
the district court are not part of the record on appeal.”).
AFFIRMED.

4

19-35830

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA

PRAYED,
Plaintiff,
Case No. 4:17-cv-00023-TMB
v.
UNITED STATES DEPARTMENT
OF LABOR; SECRETARY OF LABOR
R. ALEXANDER ACOSTA; ALASKA
RAILROAD WORKERS AFGE
LOCAL NO. 183; BRUCE M. SHELT;
and ALASKA RAILROAD
CORPORATION,
Defendants.

I.

ORDER ON MOTION TO
STRIKE (DKT. 62);
MOTIONS TO DISMISS
(DKTS. 36, 39,41)

INTRODUCTION

The matter comes before the Court on three Motions to Dismiss. Plaintiff, proceeding pro
se, advances claims against the United States Department of Labor (“DOL”), Secretary of Labor
R. Alexander Acosta,1 the Alaska Railroad Workers American Federation of Government
Employees Local No. 183 (“Local No. 183,” or the “Union”), Union President Bruce M. Shelt,
and the Alaska Railroad Corporation (“ARRC”).2 DOL and the Secretary of Labor (together, the
“Federal Defendants”), Local No. 183 and Shelt (together, the “Union Defendants”), and ARRC,

i

The Court takes judicial notice of the fact that Secretary R. Alexander Acosta, who was Secretary
of the United States Department of Labor at the time this suit was initiated, has since resigned
from office. See Gerritsen v. Warner Bros. Entertainment, Inc., 112 F.Supp.3d 1011, 1020 (C. D.
Cal. 2015) (courts may judicially notice “[f]acts and propositions that are not reasonably subject
to dispute and are capable of immediate and accurate determination by resort to sources of
reasonably indisputable accuracy.”). As of the date of this Order, the United States Senate has not
confirmed a new Secretary of Labor.
2Dkt. 31.
T

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 1 of 27

hu. ^ <v 6
^f\

in three separate motions, move for dismissal pursuant to Fed. R. Civ. P. 12(b)(6).3 All three
motions have been fully briefed.4 The parties did not move for oral argument, and the Court finds
that oral argument would not be helpful. Pending before the Court is also a Motion to Strike filed
by Plaintiff at docket 62, which has been fully briefed.5
For the reasons explained below, the Motion to Strike at docket 62 is DENIED, the
Motions to Dismiss at dockets 36, 39, and 41 are GRANTED, and Plaintiffs claims are
DISMISSED WITH PREJUDICE.
II.

BACKGROUND

Plaintiff is a former employee of the ARRC, and his claims arise from a dispute with Local
No. 183, the labor organization that represents all ARRC employees.6 Plaintiffs central contention
is that Union officials interfered with and prevented his continued involvement with Union

3 Dkt. 36 (Federal Defendants’ Motion to Dismiss); Dkt. 39 (ARRC Motion to Dismiss); Dkt. 41
(Union Defendants’ Motion to Dismiss). Although the Motion to Dismiss at docket 41 identifies
the motion as pursuant to both Fed. R. Civ. P. 12(b)(1) and 12(b)(6), the Union Defendants’
Memorandum of Law in Support of the Motion to Dismiss argues for dismissal because
(1) Plaintiff lacks statutory standing under Title I of the Labor Management Reporting and
Disclosure Act, 29 U.S.C. §§ 411-15; see Dkt. 42 at 7-9; (2) Plaintiff fails to state a claim upon
which relief can be granted; see id. at 9-17; and (3) Plaintiffs claims are barred by the applicable
statute of limitations; see id. at 18-19. Because the Union Defendants do not challenge Plaintiffs
Article III standing, their motion is properly raised under Fed. R. Civ. P. (12)(b)(6), and the Court
construes it as such. Cf. Maya v. Centex Corp., 658 F.3d 1060,1067 (9th Cir. 2011) (“Though lack
of statutory standing requires dismissal for failure to state a claim, lack of Article III standing
requires dismissal for lack of subject matter jurisdiction under Federal Rule of Civil Procedure
12(b)(1)” (emphasis original) (citing Simmonds v .Credit Suisse Sec. (USA) LLC, 638 F.3d 1072,
1087 n.6 (9th Cir. 2011)). See also Vaughn v. Bay Envtl. Mgmt., Inc., 567 F.3d 1021, 1024 (9th
Cir. 2009) (“[A] dismissal for lack of statutory standing is properly viewed as a dismissal for
failure to state a claim rather than a dismissal for lack of subject matter jurisdiction.”).
4 See Dkts. 49, 50, 54, 57 (Responses); Dkts. 53, 56, 61 (Replies).
5 Dkt. 62 (Motion to Strike); Dkt. 63 (Response). Plaintiff did not file a Reply, and the time in
which to do so has now expired. See D. Ak. L.R. (Civil) 7.2(b)(2).
6 Dkt. 31 at 12.

2
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 2 of 27

activities in violation of his rights under the Labor Management Reporting and Disclosure Act,
29 U.S.C. §§ 401-531 (the “LMRDA”).
A. Factual Background
According to the facts alleged in the Second Amended Complaint (hereinafter, the
“Complaint”), which the Court accepts as true in evaluating the Motions to Dismiss,7 the ARRC
employed Plaintiff from October 10, 2006 until his termination on June 24, 2015.8 Plaintiff also
served as an officer of the Union, most recently as Vice President-North, from November 2013
through the end of 2016.9 Plaintiff thus retained his officer position—and was initially considered
to remain a Union member—after his employment with the ARRC ended on June 24,2015;10 but,
after Plaintiffs termination was upheld and he did not win reelection to his officer position, the

7 Warren v. Fox Family Worldwide, Inc., 328 F.3d 1136, 1139 (9th Cr. 2003) (“The nature of the
dismissal requires us to accept all allegations of fact in the complaint as true and construe them in
the light most favorable to the plaintiffs. However, ‘we are not required to accept as true conclusory
allegations which are contradicted by documents referred to in the complaint[.] (internal citations
omitted) (quoting Steckman v. Hart Brewing, Inc., 143 F.3d 1293, 1295-96 (9th Cir. 1998)). See
also Harder v. Lopez, 450 F.3d 445, 448 (9th Cir. 2006). Plaintiff filed 48 attachments with the
Complaint. See Dkts. 31, 32. The first 26 attachments are docketed with the Complaint as dockets
31-1 through 31-26, and the remaining 22 attachments are docketed separately as dockets 32
through 32-22. Because these documents were submitted as part of the Complaint, and referenced
therein, the Court considers them part of the pleadings in evaluating the Motions to Dismiss. See
Lee v. City ofLos Angeles, 250 F.3d 668, 688 (9th Cir. 2001).
8

Dkt. 31 at 12, 13 (Plaintiffs start and termination dates). Plaintiffs termination was due to a
rescission of medical leave that he had been granted. See Dkt. 31 at 13; Dkt. 31 -13 at 3-4.
9 Dkt. 31 at 12 (indicating Plaintiffs election as Vice President-North); Dkt. 32-2 at 1 (indicating
Plaintiff did not win reelection). Plaintiff later sought to be elected President of the Union but was
unsuccessful. See, e.g, Dkt. 31 at 12-13.
10 Specifically, Plaintiff asserts that, in “an email thread initiated by [Plaintiff]” in July 2015, “Shelt
verifies [Plaintiff] is a ‘member in good standing’ and ‘retains the office of North End Vice
President’ even though he has been terminated by the ARRC.” Id. (emphasis original).

3
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 3 of 27

Union informed Plaintiff in April 2017 that his membership ended effective with his termination
from the ARRC as described below.
Plaintiff pursued grievance proceedings contesting his June 2015 termination, but was
ultimately unsuccessful.11 His discontent with the Union’s representation of him during that
process—and the subsequent events that unfolded regarding his officer status—caused Plaintiffs
relationship with the Union, Shelt, and the ARRC to deteriorate. In March 2016, Plaintiffs access
to ARRC property was rescinded.12 Then, at the November 2016 election, Plaintiff lost his position
as a Union officer.13 Plaintiff immediately contested the election, initially via internal protest,
which was denied on December 6, 2016; and then, via formal election appeals, first to the
American Federation of Government Employees (“AFGE”) national officers, and finally to the
Department of Labor.14

11 Plaintiff pursued two grievances stemming from his termination. Dkt. 31 at 13-16. He asserts
that the Union did not provide him representation during the grievance hearing for grievance
2015-06, which took place on August 11, 2015. Id. at 13. Plaintiff also asserts that the Union
initially approved, but then wrongfully retracted approval for, grievance proceeding 2015-07. Id.
at 14—16. Plaintiff states “I asked [Union] President Shelt for a qualified representative, to which
he replied no[.]” Id. However, attachments to the Complaint indicate that the initial grievance,
2015-06, did not proceed to arbitration by vote of the Executive Board, as provided for under
Union rules and regulations. See Dkt. 31-25 at 5. Similarly, the latter grievance, 2015-07, was not
pursued by the Union because it was filed without approval of the Executive Board, in violation
of Union rules and regulations. See Dkt. 31-22 at 4.
12 Dkt. 31 at 16; Dkt. 31-11 at 1; Dkt. 31-26 at 1.
13 Dkt. 32-3. See also Dkt. 32 at 20 (October 18, 2016 ballot indicating Plaintiffs candidacy for
the position of Vice President-North).
14 Dkt. 31 at 16. See also Dkt. 32 (Plaintiffs November 18, 2016 Election Protest filed with Local
No. 183); Dkt. 32-1 (letter from Local No. 183 Election Committee denying Plaintiffs Election
Protest); Dkt. 32-2 (Election Appeal sent to National Vice President of the American Federation
of Government Employees, dated December 21, 2016); Dkt. 32-6 (Election complaint transmitted
to DOL dated February 24,2017).

4
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 4 of 27

On February 1,2017, the Union determined that full membership in Local No. 183 was no
longer available to Plaintiff because he was no longer an employee of the ARRC or an officer of
the Union.15 The Union offered Plaintiff an honorary membership, “in much the same way that
retirees are eligible.”16 Plaintiff responded by serving the Union notice of his continued election
protests.17 On April 11, 2017, the Union informed Plaintiff by letter that they had returned an
attempted dues payment—which was not made in conformance with union regulations18—and that
“since you have rejected our offer for honorary membership, this return of your funds marks the
end of your relationship with [Local No. 183].”19 Plaintiff retired as of June 30, 2017.20
Plaintiffs involvement with Local No. 183 did not, however, end here. Pursuant to a
voluntary compliance agreement between the Union and DOL entered into on May 9, 2017, the
Union agreed to conduct a remedial election in Fall 2017 under DOL supervision to address
procedural flaws with the November 2016 election.21 Plaintiff participated in this election as a

15 Dkt. 31 at 16; Dkt. 32-3.
16 Dkt. 32-3; Dkt. 31 at 16-17.
17 Dkt. 31 at 17; Dkt. 32-4; Dkt. 32-5.
18 Plaintiff was also previously notified by the outgoing Union treasurer that his method of paying
dues for 2017 via direct deposit violated Union regulations. See Dkt. 31-15.
19 Dkt. 32-7 at 1. See also Dkt. 31 at 17 (“Next, the [Union Executive] Board notifies Plaintiff that
his membership terminated on June 30,2015”). In referencing these events, Plaintiff contends that
this amounted to an “expulsion” from the Union “without notification, charges, or an appropriate
hearing[.]” Id. at 17.
20 Dkt. 32-11. Plaintiff started the process of retiring in January 2017 but asserts that he stopped
the process “to cautiously preserve my union officer election protest with [DOL].” Id. at 2.
21 Dkt. 32-9. Plaintiff received notice of this on May 24, 2017 and was invited to attend a PreElection Conference along with other interested parties. Dkt. 32-10. The remedial election was
conducted to ensure compliance with Title IV of the LMRDA. See Dkt. 32-9.

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 5 of 27

candidate for President, but was again unsuccessful, and again contested the election results; in
January 2018, DOL concluded that no Title IV LMRDA violations occurred during the remedial
election.22 Despite this, Plaintiff continues to assert wrongdoing and noncompliance with Union
procedures during both elections;23 however, Plaintiff also states that his Complaint “does not
directly challenge the validity of the new election conducted under the supervision of the Secretary
of Labor. »24
Plaintiff also now asserts—despite the Union’s termination of his membership in April
2017 and his subsequent retirement25—that he remains a member in good standing of the Union,26
that he “paid ahead a full year’s worth of dues”27 and that he “is still in Paid Union Dues Status.”28

22 Dkt. 32-10; Dkt. 31 at 17-18 (stating that Plaintiff “came in 2nd for the [Union] Presidency”);
Dkt. 32-18 (final DOL determination regarding Plaintiffs protest of 2017 election).
23 Id. at 16-17, 18; Plaintiff continues to assert that the remedial election involved “procedural
flaws at large and targeted abuse directed towards the Plaintiff,” and that “[e] lection irregularities
still occurred in the ‘new’ election.” Id. at 17. See also Dkt. 32-18 at 5.
24 Dkt. 31 at 8.
25 See id. at 17. See also id. at 19 (requesting “retirement dues” be factored into the calculation of
his dues to be paid); Dkt. 32-11 at 2 (email from Plaintiff representing that he is now retired). The
Court notes that the Union’s letter dated February 1, 2017 offered Plaintiff “an offer to become an
honorary member, in much the same way that retirees are eligible.” Dkt. 32-3.
26 See, e.g., Dkt. 31 at 17 (contending that the DOL Office of Labor-Management Standards, who
handled Plaintiffs election protest, “sanctioned [Plaintiff] as a member in good standing able to
be a bono fide [sic] candidate”).
21 Id. at 13.
28 Id. at 14. This assertion by Plaintiff appears to hinge, at least in part, on his characterization that
he was on a leave of absence from the ARRC and/or Union for some period. See id. at 13-14. The
basis for this characterization of Plaintiff s employment status is unclear given that the attachments
to Plaintiffs Complaint clearly characterize his employment as “terminated,” and indicate that
Plaintiff is now retired from the ARRC. See, e.g., id. at 8; 17 (referencing Plaintiffs retirement
status); Dkt. 31-11 (referencing Plaintiff’s termination). The Complaint is devoid of any facts
6-

Case 4;17-cv-00023-TMB Document 66 Filed 07/31/19 Page 6 of 27

Plaintiff also alleges that he “continued to try to participate at each General Membership Meeting”
between June 1,2017 and January 4, 2018, but was wrongfully denied access.29
Plaintiff brings claims under Title I of the LMRDA.30 Plaintiff first argues “that the DOL
erred in their duty to supervise an election eliminating or preventing improper practices,” and
contends that the DOL should be vested with additional enforcement authority to supervise union
activities.31 Plaintiff also alleges that the ARRC and the Union Defendants violated his equal rights
under the LMRDA32 and “suppress[ed] [Plaintiff’s] free speech rights.”33
Plaintiff requests several remedies to address the alleged violations: First, Plaintiff seeks a
“ruling for expanded authority for the DOL supervising elections of union officers” to “control for
persistent egregious abuses[.]”34 Second, Plaintiff requests $10,000 in monetary damages “for
campaign materials, travel, food, lodging, and personal time expended,” and up to $150,000 in
punitive damages.35 Finally, Plaintiff asks the Court to direct specific actions in response to his

relating to dues payments for any years after 2017, despite Plaintiffs assertions that he remains in
good standing with the Union financially.
29Dkt. 31 at 17-18.
30 Id. at 7.
31 Id. at 11 (arguing that “the authority exercised by the Secretary of Labor as executed from a
Title IV complaint, establishing a voluntary compliance agreement for supervision by the [DOL]
consequently vests enforcement authority to act on Title I provisions of the LMRDA as under their
purview.”). Plaintiff acknowledges that no recognized cause of action under the LMRDA allows
for the relief he requests, but nonetheless contends that there is a “need for positive law creation”
to expand DOL’s authority. Id.
32 Dkt. 31 at 8-9,18.
33 Id.
M Id. at 19.
35 Id. at 8, 21.

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 7 of 27

allegations. Plaintiff “requests [a] ruling that his [Union] membership remains in good standing
and [is] formally reinstated,” an order informing the Union of his rights,36 and an order stipulating
his dues and requiring the Union to accept his dues payment.37 Plaintiff also requests that the Court
“stipulate^ egregious misconduct propagated by Bruce Shelt,” “remove Shelt from his position as
Union President, and “direct the [Union] in the correct provision for successor to the office of
[Union] president should Shelt be disqualified. ”38
B. Procedural Background
Plaintiff initiated this action on September 25,2017, initially against four defendants: DOL,
the Secretary of Labor, Local No. 183, and Shelt.39 Plaintiff also moved that same day for a
temporary restraining order to stop a Union election scheduled for September 28, 2017, which the
Court denied.40 On October 2, 2017, Plaintiff filed a First Amended Complaint, and again

36 Id. at 19-20. Plaintiff specifically “requests Court order served upon the [Union] to be disclosed
by notice to all [Union] members, that ‘Mr. Prayed, as a member in good standing, he fully retains
his Equal Rights, Freedom of Speech and Assembly, and his Protection of the Right to Sue ... as
codified within 29 U.S.C. 411.”’ Id. at 20. Plaintiff further “requests Court order served upon the
[Union] Executive Board that Mr. Prayed’s rights of membership conform to the AFGE
Constitution and any action taken in breach of these guidelines must be appropriately framed as
Safeguards Against Improper Disciplinary Action stipulates per 29 U.S.C. 411 SEC. 101(a)(5).”
Id.
37 Mat 19-20.
38 Id. at 20-21. Plaintiff also specifically “requests Court order disqualifies Shelt from union office
as consequence of egregious misconduct persistently propagating violations of LMRDA and the
fair democratic election of union officers,” and a “Court order disqualifying Shelt from office for
a definite suspension period, but that his acceptance of this ‘corrective’ measure for egregious
violations of LMRDA resulting in a Title IV enforcement for a new election, then finally
prosecution for Title I violations, may be ameliorated by'affecting a smooth transition of the office
with continued good behavior.” Id.
39 Dkt. 1.
40 Dkt. 4 (Motion for Temporary Restraining Order); Dkt. 5 (Order).

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 8 of 27

requested a temporary restraining order, which the Court denied.41 Shortly thereafter, Defendants
moved to dismiss,42 and Plaintiff responded by moving to further amend his Complaint,43 which
the Court granted.44 Plaintiff filed a Second Amended Complaint—the currently operative
complaint—on November 16, 2018, adding the ARRC as a defendant.45 All five Defendants now
move to dismiss via three separate motions,46 all of which have been fully briefed and are ripe for
resolution.47
III.

LEGAL STANDARD

A motion under Fed. R. Civ. P. 12(b)(6) tests the legal sufficiency of the Plaintiffs claims.
To survive a motion to dismiss under Fed. R. Civ. P. 12(b)(6), a complaint must set forth “a short

41 Dkt. 6 (First Amended Complaint); Dkt. 7 {Ex Parte Motion for Injunctive relief); Dkt. 8 (Order
Denying Ex Parte Motion).
42 See Dkt. 9 (Local No. 183 Motion to Dismiss for Lack of Jurisdiction), Dkt. 10 (DOL Motion
to Dismiss).)
43 Dkts. 11, 12.
44 Dkt. 19.
45 Dkt. 31.
46 Dkt. 36 (Federal Defendants’ Motion to Dismiss); Dkt. 39 (ARRC Motion to Dismiss); Dkt. 41
(Union Defendants’ Motion to Dismiss).
47 Dkts. 49, 50 (Response to Federal Defendants’ Motion to Dismiss); Dkt. 53 (Reply by Federal
Defendants); Dkt. 54 (Response to ARRC Motion to Dismiss); Dkt. 56 (Reply by ARRC); Dkt.
57 (Response to Union Defendants’ Motion to Dismiss); Dkt. 61 (Reply by Union Defendants).
Plaintiffs Response at docket 57 was late-filed and accompanied by a Notice of Excusable Neglect
at docket 58 due to a miscommunication between Plaintiff and the Clerk of Court. For the good
cause shown therein, the Court accepts that Response as timely filed. The Court address the
pending Motion to Strike, which arose from motion practice associated with the late-filed response,
in Part IV.A below.
9

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 9 of 27

and plain statement of the claim showing that the pleader is entitled to relief,”48 and “contain
sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face. J5J49
In determining whether a complaint pleads sufficient facts to cross “the line between
possibility and plausibility,” courts may disregard “[tjhreadbare” legal conclusions.50 However, a
plaintiff need not plead “all facts necessary to carry” his or her burden.51 “Determining whether a
complaint states a plausible claim for relief . . . [is] a context-specific task that requires the
reviewing court to draw on its judicial experience and common sense.”52 So long as a plaintiff
meets this standard of plausibility, his or her claim survives a 12(b)(6) motion even if a defendant
presents a similarly plausible description of the disputed events.53 Ultimately, “dismissal for
failure to state a claim is proper only if it appears beyond doubt that the plaintiff can prove no set
of facts in support of his claim which would entitle him to relief. «54
In ruling on a 12(b)(6) motion, the Coin! must “accept all factual allegations of the
complaint as true and draw all reasonable inferences in favor of the nonmoving party.”55 Generally,
48

Fed. R. Civ. P. 8(a)(1).

49 Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 556-57 (2007)).
50 Iqbal, 556 U.S. at 678 (citing Twombly, 550 U.S. at 555).
51 Al-Kidd v. Ashcroft, 580 F.3d 949, 977 (9th Cir. 2009), rev’d on other grounds 563 U.S. 713
(2011).
52 Iqbal, 556 U.S. at 679 (citation omitted).
53 Starr v. Baca, 652 F.3d 1202, 1216 (9th Cir. 2011).
54 Arpin, 261 F.3d at 923 (quoting Pillsbury, Madison, & Sutro v. Lerner, 31 F.3d 924, 928) (9th
Cir. 1994)).
55 Arpin v. Santa Clara Valley Transp. Agency, 261 F.3d 912, 923 (9th Cir. 2001) (quoting Nat 7
Ass ’nfor the Advancement ofPsychoanalysis v. Cal. Bd. OfPsychology, 228 F.3d 1043,1049 (9th
Cir. 2000)).
10

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 10 of 27

courts should not consider materials outside of the pleadings when ruling on a motion to dismiss
for failure to state a claim.56 Courts may, however, consider materials attached to the Complaint
as part of the pleadings.57 And, while a court must “accept as true all well-pleaded allegations of
material fact, and construe them in the light most favorable to the non-moving party,” courts “are
not, however, required to accept as true allegations that contradict exhibits attached to the
[cjomplaint. »58 Nor is a court required to accept “allegations that are merely conclusory,
unwarranted deductions of fact, or unreasonable inferences. »59
Fed. R. Civ. P. 12(b)(6) also encompasses the requirement that a plaintiff have statutory
standing to bring the claims he or she asserts.60 “Standing is both a constitutional and statutory
principle.”61 While motion to dismiss for lack of Article III standing, or constitutional standing, is
properly brought under Fed. R. Civ. P. 12b)(l), a motion to dismiss for lack of statutory standing
falls under Fed. R. Civ. P. 12(b)(6). 62 “The question whether Congress has granted a private right

56 Id. (citing Branch v. Tunnell, 14 F.3d449, 453 (9th Cir. 1994)).
57 Daniels-Hall v. Nat’lEduc. Ass % 629 F.3d 992, 998-99 (9th Cir. 2010). See also Lee, 250 F.3d
at 688-89.
58Daniels-Hall, 629 F.3d at 998-99. See also Warren v. Fox Family Worldwide, Inc., 328 F.3d
1126, 1139 (9th Cir. 2003) (stating that courts “Courts “are not required to accept as true
conclusory allegations which are contradicted by documents referred to in the complaint.”).
59 Daniels-Hall, 629 F.3d at 998-99.
60

Cetacean Cmty v. Bush, 386 F.3d 1169, 1175 (9th Cir. 2004) (“If a plaintiff has suffered
sufficient injury to satisfy the jurisdictional requirement of Article III, but Congress has not granted
statutory standing, that plaintiff cannot state a claim upon which relief can be granted.”).
61 Lake Washington Sch. Dist. No. 414 v. Office of Superintendent of Pub. Instruction, 634 F.3d
1065,1067 (9th Cir. 2011).
62 See In re Apple Iphone Antitrust Litigation, 846 F.3d313,316-17 (9th Cir. 2017). See also Bush,
386 F.3d at 1174 (“Standing involves two distinct inquiries. First, an Article III federal court must
ask whether a plaintiff has suffered sufficient injury to satisfy the ‘case or controversy’ requirement
___ .

-—- - -

■— -

——-

11—

--------

—----

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 11 of 27

—

of action to a particular plaintiff is not a jurisdictional requirement. >»63 Rather, to determine if a
plaintiff has statutory, or “[n]on-constitutional standing,” courts look to whether ‘“a particular
plaintiff has been granted a right to sue by the specific statute under which he or she brings suit.”’64
IV.

ANALYSIS

A. Motion to Strike
Before turning to the pending Motions to Dismiss, the Court must first address the motion
practice that resulted from Plaintiffs late filing of the Response to the Union Defendants’ Motion
to Dismiss;65 specifically, the pending Motion to Strike that is also currently under advisement.66
On May 3, 2019, Plaintiff filed both a Response to the Union Defendants’ Motion to
Dismiss and a Notice of Excusable Neglect, the latter of which explained the reasons for his latefiling of the former.67 The Union Defendants responded to the Notice of Excusable Neglect,
arguing that “Plaintiffs Notice of Excusable Neglect does not comply with Local Rule 7.3(j),”
and asserting that “Plaintiffs Opposition should therefore be stricken from the record. »68 The
Union Defendants later filed a Reply addressing the merits of Plaintiff s Response.69 Plaintiff then

of Article III. Second ... a federal court must ask whether a statute has conferred ‘standing’ on
that plaintiff.” (quoting City ofSausalito v. O’Neill, 386 F.3d 1186, 1199 (9th Cir. 2004)).
63 DB Healthcare, LLC v. Blue Cross Blue Shield ofArizona, Inc., 852 F.3d 868, 873 (9th Cir.
2017) (emphasis original).
64 Bush, 386 F.3d at 1175 (quoting O ’Neill, 386 F.3d at 1199 (9th Cir. 2004)).
65 See Dkt. 57 (Response); Dkt. 58 (Notice of Excusable Neglect).
66 See Dkt. 62 (Reply to Opposition and Motion to Strike); Dkt. 63 (Response).
67 Dkts. 57, 58. The Court’s prior Order at docket 55 granted Plaintiffs motion for an extension
of time in which to file his third response and set a deadline of Monday, April 29,2019 for Plaintiff
to respond to the Union Defendants’ Motion to Dismiss. See Dkt. 55.
68

Dkt. 60.

69 Dkt. 61.

■12
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 12 of 27

filed a Motion to Strike the Union Defendants’ Reply, contending that the Union Defendants had
filed more than one reply to his response,70 which the Union Defendants opposed.71
Plaintiffs Motion to Strike is without merit. The Union Defendants were entitled to
respond to each of Plaintiff s filings, which they did. As discussed, the Court accepted Plaintiffs
Response at docket 57 as timely filed, and will consider the arguments advanced therein. The Court
also accepts the Union Defendants’ Reply at docket 61 and will similarly consider the arguments
advanced therein. Accordingly, the Motion to Strike at docket 61 is DENIED.
B. Motions to Dismiss
Liberally construing Plaintiffs claims, as is appropriate with pro se litigants,72 Plaintiff
effectively raises two broad sets of claims. First, Plaintiff seeks a “ruling for expanded authority
for the DOL supervising elections of union officers” under the LMRDA, as well as additional
oversight of the Union’s elections.73 Second, Plaintiff asserts violations of his equal rights and
right to free speech and assembly, as secured by Title I of the LMRDA, and requests the Court
intervene to restore his rights as a union member.74

70 Dkt. 62 at 7-8.
71 Dkt. 63.
72 See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (“A document filed pro se is to be liberally
construed.” (internal quotation marks omitted)).
73 Dkt. 31 at 19. Plaintiff asserts that he is not challenging the result of any election. See Dkt. 31
at 8 (“[T]his pro se complaint does not directly challenge the validity of the new election under
the supervision of the Secretary of Labor”). However, Plaintiffs requested relief suggests the
opposite, as Plaintiff asks the Court to remove Shelt as Union president, disqualify him from future
elections, and mandate continued oversight of union elections. Id. at 20-21.
74 Id. at 19-20. (“Prayed requests ruling that his [Union] membership remains in good standing
and formally reinstated as such by Court order[.]”). Plaintiff further “requests that his dues are
calculated through to a definite date” and an order “instructing the [Union] continues accepting
dues payment from [Plaintiff] in order that he may continue to be a[] [Union] member in good
standing.” Id. at 20. Last, Prayed requests the Court issue an “order served upon the [Union] to be
T3’
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 13 of 27

The Motions to Dismiss now pending seek dismissal of Plaintiffs’ claims in their entirety.
First, the Federal Defendants move to dismiss the claims against them under Fed. R. Civ. P.
12(b)(6), asserting that the Complaint does not—and cannot—state any viable claim against the
Federal Defendants under the LMRDA.75 Second, the Union Defendants move for dismissal under
Fed. R. Civ. P. 12(b)(6), contending that (1) Plaintiff, as a non-member of the Union, lacks
standing to bring his claims under the LMRDA; (2) Plaintiff has failed to state a claim upon which
relief can be granted; and (3) Plaintiffs claims are time barred under the applicable statute of
limitations.76 Finally, the ARRC moves for dismissal under Fed. R. Civ. P. 12(b)(6), asserting that
Plaintiff fails to plead sufficient facts to support his clams against them, and further asserting that
Plaintiffs claims against ARRC are time barred.77 Plaintiff opposes all three Motions to Dismiss.78
1. Federal Defendants’ Motion to Dismiss
The Federal Defendants move to dismiss under Fed. R. Civ. P. 12(b)(6), arguing that
Plaintiff fails to articulate a cognizable claim because “the only cause of action that [Plaintiff]
raises against the [FJederal [Defendants is an alleged failure to enforce Title I of the LMRDA,”
which DOL “does not have authority to enforce[.]”79 Plaintiff, in response, argues for an

disclosed by Notice to all [Union] members, that ‘Mr. Prayed, as a member in good standing, he
fully retains his Equal Rights, Freedom of Speech and Assembly, and his Protection of the Right
to Sue for encroachment therein as codified within 29 U.S.C. 411.’”). Id.
75 Dkt. 36 at 2.
76 Dkt. 42 at 1-2.
77 Dkt. 40 at 1.
78 Dkts. 49, 50, 54, 57.
79 Dkt. 36 at 5. While the Complaint does not directly articulate which claims Plaintiff asserts
against each defendant, Plaintiffs factual allegations involving the Federal Defendants relate
solely to the two Union elections that Plaintiff contested.
'IT
Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 14 of 27

“expanded authority” for election enforcement under Title I, and contends that his Complaint
“challenges that DOL[’s] inaction, delay, evasiveness, and/or action contributes to the
perpetuation” of the LMRDA violations he asserts.80
The LMRDA was enacted to protect and guarantee the rights of union members and ensure
democratic proceedings within labor organizations.81 Title I of the LMRDA guarantees union
members freedom of speech, freedom of assembly, and equal rights with other union members,
and explicitly provides for enforcement through a private cause of action in district court.82 The
Secretary of Labor explicitly does not have enforcement authority under Title I.83 Title IV, by
contrast, is aimed at ensuring fair and democratic election proceedings;84 the LMRDA delegates
to the Secretary of Labor the authority to investigate violations of Title IV.85 Thus, as the Federal
Defendants correctly explain, the remedial provisions found in Title I and Title IV of the LMRDA

80

Dkt. 49 at 7.

81 See 29 U.S.C. § 411(a)(1).
82 29 U.S.C. §§ 411, 412. See also Local No. 82, Furniture & Piano Moving, Furniture Store
Drivers, Flelpers, Warehousemen & Packers v. Crowley, 467 U.S. 526, 528, (1984) (“Title I of the
[LMRDA] provides a statutory ‘Bill of Rights’ for union members . . . with enforcement and
appropriate remedies available in district court.”).
83 29 U.S.C. § 521(a) (exempting Title I from the Secretary of Labor’s enforcement authority). See
also Finnegan v. Leu, 456 U.S. 431 (1982).
84

29 U.S.C. §§ 481-82, 521. See also Crolwey, 467 U.S. at 528 (“Title IV, in contrast, provides
an elaborate postelection procedure aimed solely at protecting union democracy through free and
democratic elections, with primary responsibility for enforcement lodged with the Secretary of
Labor.”).
85 29 U.S.C. § 521(a).
15

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 15 of 27

are distinct in that “Title I may be enforced by private individuals,” while “[T]itle IV may be
enforced exclusively by the Secretary of Labor.”86
Considering this statutory framework, the Court concludes that Plaintiff has not—and
cannot—articulate a claim against the Federal Defendants. The relief Plaintiff seeks is not provided
for under the LMRDA,87 nor can the Court discern any other cause of action that would he against
the Federal Defendants based ron the facts alleged, even construing Plaintiff’s assertions liberally.
First, the LMRDA does not provide Plaintiff a cause of action against the DOL or the
Secretary of Labor under either Title I or Title IV. The Federal Defendants were involved in the
events Plaintiff recounts solely to exercise oversight authority pursuant to Title IV of the LMRDA,
and have concluded that process, and Plaintiff states that he does not challenge the validity of any
election.88 No further relief is available under Title IV.89 And, the LMRDA does not provide for a
cause of action against the Federal Defendants under Title I, nor do any facts alleged by Plaintiff
support the inference that DOL or the Secretary of Labor was in any way responsible for the
alleged Title I violations Plaintiff asserts.90
Second, to the extent that Plaintiff names the Federal Defendants because he seeks to
establish a novel form of relief under the LMRDA, Plaintiff has not articulated a viable cause of

86

Dkt. 36 at 5.

87 Crowley, 461 U.S. at 547.
88

Dkt. 31 at 8; Dkt. 36 at 3-5.

89

See Crowley, 467 U.S. at 541 (“the exclusivity provision included in § 403 of Title IV plainly
bars Title I relief when an individual union member challenges the validity of an election that has
already been completed”).
■

.

.

>

•

.....

.

•

90 See 29 U.S.C. § 411-12; Thompson v. McCombe, 99 F.3d 352, 353 (9th Cir. 1996) (“The
LMRDA secures the right of a person to bring a civil action against a labor organization in district
court.” (quoting 29 U.S.C. §§ 402(i), 412) (emphasis added)).
To

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 16 of 27

further contend that Plaintiff has failed to state a claim upon which relief can be granted under the
LMRDA,96 and that, to the extent Plaintiffs claims are predicated on events that occurred on or
before September 25, 2015, those claims are time-barred under the applicable statute of
limitations.97 Plaintiff, in response, reiterates his position that he is a member in good standing of
Local No. 183, and asserts that the Union Defendants are liable to him for violations of his equal
rights and right to free speech under Title I of the LMRDA. 98
The Court first turns to the question of whether Plaintiff has standing under the LMRDA
to pursue his claims. Title I of the LMRDA provides that “any person whose rights secured by the
provisions of this subchapter have been infringed by any violation of this subchapter may bring a
civil action in a district court of the United States . . . .” 99 For purposes of Title I, the LMRDA
defines a member of a labor organization for purposes of Title I as follows:
“‘Member’ or ‘member in good standing,’ when used in reference to a labor
organization, includes any person who has fulfilled the requirements for
membership in such organization, and who neither has voluntarily withdrawn from
membership nor has been expelled or suspended from membership after
appropriate proceedings consistent with lawful provisions of the constitution and
bylaws of such organization. »ioo
“It is generally recognized that the definition of ‘member,’ within 29 U.S.C. § 402(o), is
not limited to those persons who are recognized as members by the union. „

96

101

The LMRDA

Id. at 9,16-17.

91 Id. at 18.
98

See generally Dkt. 57.

99 29 U.S.C. §412.
100

29 U.S.C. § 402(o).

101

Brennan v. Local 357, Int’IBhd. of Teamsters, Chauffeurs, Warehousemen & Helpers ofAm.,
709 F.2d 611, 614 (9th Cir. 1983).
18

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 18 of 27

“provides rights to those persons who have fulfilled the requirements of membership, i.e., those
who are members in substance despite the fact that union officials have not performed the
ministerial acts necessary to give formal recognition to a person's status as a member. ”102
However, “[i]t is also well established that if an individual has failed to comply with the
membership requirements of a labor organization, that individual may not obtain relief under the
Act. ”103
Despite Plaintiffs conclusory assertions that he remains a member in good standing of
Local No. 183, the Court finds that—taken in sum—the allegations in Plaintiffs Complaint are
insufficient to give him standing under Title I of the LMRDA. The LMRDA is specifically
designed to protect union members, 104 but “was not drafted with the intent to dictate the
requirements established by a labor organization respecting membership.”105 Here, the Complaint
makes clear that Plaintiff is no longer employed by the ARRC, 106 was unsuccessful in the
grievance process and in winning re-election as an officer,107 and rejected the Union’s February

102 Id.
103 Id.
104

Finnegan, 456 U.S. at 437.

105 Id.
106

Dkt. 31 at 12; Dkt. 31-9 at 1. Plaintiff initially retained his membership such that he could
pursue grievance proceedings. See Dkt. 31-13 (July 6, 2015 email communication from Shelt
stating “I have checked, and Mr. Prayed’s status has been verified; he is a ‘member in good
standing,’ and as such, he also retains the Office of North End Vice President and will be able to
file/present the Step 3 Grievance.”). Plaintiff continued to pay dues while an officer. Dkt. 31-15.
107

Plaintiff was also unsuccessful as a candidate in the subsequent remedial election the Union
held under DOL supervision in September 2017. See Dkt. 31 at 8. Plaintiff filed an election protest
challenging the remedial election, which DOL determined was without merit. See Id. at 18; Dkt.
32-18 at 5.
19

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 19 of 27

2017 offer for honorary membership. The Union notified Plaintiff in April 2017 that his
membership was terminated as of the date his employment with the ARRC ended.108 Plaintiff is
now retired,109 and has not paid dues since 2016.110 No facts alleged by Plaintiff, other than his
own unsupported and conclusory assertions, support the conclusion that Plaintiff remains a
member of Local No. 183.
Nor does the Court find any other allegations in the Complaint that would support the
conclusion that Plaintiff has standing to maintain this action. To the extent that Plaintiff remained
active in Union activities after his termination because of his ongoing election protests, Plaintiffs
candidacy for a position as a union officer cannot, by itself, entitle him to maintain an action under
the LMRDA. Rather, it is well-settled that the provisions of Title I protect ‘“rank-and-file union
members—not union officers or employees’” of the Union.111 No other facts suggest that Plaintiff
is protected by the provisions of the LMRDA such that he is entitled to maintain this action.
Plaintiff thus lacks standing to pursue this action under the LMRDA.
Moreover, even if the Court were to construe Plaintiffs assertions as sufficient to confer
standing under the LMRDA, the Court is not persuaded that Plaintiff has stated a claim upon which

108

Dkt. 31 at 17; Dkt. 32-7.

109

Dkt. 31 at 8; id. at 16; Dkt. 32-12. An excerpt from the AFGE National Constitution, as well as
the Union’s letter to Prayed in February 2017, both suggest that retirees are not eligible for full
membership, but rather for a special retiree affiliation. See Dkt. 31-18, Dkt. 32-3.
no

While Plaintiff asserts that he is current on his Union dues payments, see, e.g., Dkt. 31-16 at 1,
the Complaint indicates that Plaintiffs payments following his termination were not in
conformance with Union regulations and that the Union returned Plaintiffs payment for the 2017
calendar year. See Dkt. 31-7 at 4; Dkt. 32-7 at 1. Nowhere does Plaintiff represent that he has
continued to make any later payment of union dues.
111 Teamsters Joint Council No. 42 v. Int’l Bhd. of Teamsters, AFL-CIO, 82 F.3d 303, 305 (9th
Cir. 1996) (quoting Finnegan, 456 U.S. at 437)).
20

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 20 of 27

relief can be granted under Title I of the LMRDA for either a violation of his equal rights or his
right to free speech and association.
To state a claim for violation of equal rights as secured by 29 U.S.C. § 411(a)(1), a union
member must show that he or she was deprived of some right secured to other Union members.112
Plaintiffs conclusory assertions of such a violation are insufficient,113 and the facts alleged do not
support such a claim. The protections of 29 U.S.C. § 411(a)(1) have been “construed narrowly to
apply only to the enumerated rights listed in the statute, including voting, nominating, and
attending membership meetings.”114 The only relevant facts Plaintiff alleges are those describing
his exclusion from participating in the Union’s general meetings between June 1, 2017 and
January 4, 2018.115 No facts alleged indicate a violation of any other protected right. 116

112 Calhoonv. Harvey, 379 U.S. 134,138-39 (1964). See also Kupauv. Yamamoto, 622F.2d449,
453 (9th Cir. 1980).
113 Dkt 31 at 9, 18 (“[Plaintiff] argues that Cause of Action as presented satisfied burden of
establishing that he was denied equal rights[.]”). Cf. Iqbal, 556 U.S. at 678 (“A pleading that offers
‘labels and conclusions’ or ‘a formulaic recitation of the elements of a cause of action will not
do.’” (quoting Twombly, 550 U.S. at 555)).
114 Ackley v. W. Conference of Teamsters, 958 F.2d 1463,1473 (9th Cir. 1992). See also ImsandeSexton v. Local 9509, Commc’ns Workers of Am., AFL-CIO, No. 05CV272 J (LSP), 2007 WL
9718966, at *9 (S.D. Cal. Apr. 9, 2007), aff’d sub nom Imsande-Sexton v. Comm’ns Workers of
Am., AFL-CIO, 333 F. App’x 220 (9th Cir. 2009) (citing Calhoon, 379 U.S. at 138-39).
Specifically, 29 U.S.C. § 411(a)(1) protects union members’ rights “to nominate candidates, to
vote in elections or referendums of the labor organization, to attend membership meetings, and to
participate in the deliberations and voting upon the business of such meetings.”
115 Dkt. 31 at 17,18. See also Dkt. 32-17.
116

Many of Plaintiff s factual assertions regarding the conduct of the Union Defendants relate to
the events surrounding the November 2016 election for Local No. 183 officers and the subsequent
remedial election that occurred in 2017. See, e.g., Dkt. 31 at 4 (asserting that “DOL correspondence
of December 19, 2017, raises the issue that the OLMS fails in its performance and arrives at the
incorrect conclusion that all candidates have received equal treatment”); id. at 8 (requesting
compensatory and punitive damages in relation to the September 2017 election process); id. at 10
(asserting errors with DOL review of the election); id. at 16-19 (discussing “procedural flaws”
with Union investigation). Plaintiff continues to allege numerous defects with both elections under
21

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 21 of 27

Under § 411(a)(1), “a complaining union member states a claim if she asserts a denial of a
voting right given to another member of class of members. Ml 17 Nowhere does the statute extend
this protection to non-members. Plaintiff’s exclusion from the general meetings occurred after
Plaintiff was no longer an employee of the ARRCS no longer an officer of the Union, and rejected
the Union’s offer of honorary membership. Where Plaintiff—by his own action—rejected the
opportunity for continued Union membership, the Union Defendant’s subsequent restriction of his
participation in Union business does not amount to a claim for discrimination under § 411(a)(1).
Nor has Plaintiff stated a claim for violation of his right to free speech or free assembly as
secured by the LMRDA. In guaranteeing the rights of free speech and assembly to union members,
the LMRDA provides, in pertinent part, that “[ejvery member of any labor Organization shall have
the right to meet and assemble freely with other members; and to express any views, arguments,
or opinions... subject to the organization’s established and reasonable rules pertaining to the
conduct of meetings. »118 To state a cause of action for a violation of this provision, “a union
member must allege facts showing that: (1) he or she exercised the right to oppose union policies;
(2) he or she was subjected to retaliatory action; and (3) the retaliatory action was ‘a direct result
of his or her decision to express disagreement’ with the union’s leadership. ”1,19

Title IV; however, those assertions have already been fully addressed by DOL. See generally Dkt.
32=18 (Determination of Complaint Filed under Title IV of the LMRDA by U.S. Dep’t of Labor).
117 Imsande-Sexton, 2007 WL 18966, at *9. See also Ackley v. W. Conference of Teamsters, 958
F.2d 1463,1473 (9th Cir. 1992) (stating that § 411(a)(1) “is an anti-discrimination provision, pure
and simple. To state a claim under [§ 411(a)(1)], a union member must allege a denial of rights
accorded to other members.”).
!

118 29 U.S.C. §411(a)(2).
119 Casumpang, 269 F.3d at 1058 (quoting Sheet Metal Workers ’ Int’l Ass ’n, et al., v. Lynn, 488
U.S; 347, 354 (1989)).

C
22

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 22 of 27

a

speech and assembly.123 ARRC moves to dismiss under Fed. R. Civ. P. 12(b)(6), arguing that
(1) “there are no factual assertions included in the [Complaint] that would render a plausible claim
for an LMRDA violation by the ARRC;” (2) the ARRC is not subject to the LMRDA because of
the statute’s public employer exemption; and (3) that any claims raised by Plaintiff under the First
Amendment, and/or 42 U.S.C. § 1983, are time barred.124 Plaintiff, in response, contends that he
was entitled to access the property because he was a former employee, a member of the Union,
and was running for union office at the time.125 Plaintiff further argues that, due to his continued
attempts to participate in Union activities, his claims are not barred by any statute of limitations
because they occurred during “the months initiating on June 1st 2017 and onward. ”126
Before addressing these arguments, the Court notes that the Complaint is ambiguous as to
whether Plaintiff intended to raise his free speech claims under the First Amendment, asserting a
claim under 42 U.S.C. § 1983, or if Plaintiff s free speech claims arise solely under the LMRDA,127
and the ARRC addressed both potential claims in its Motion to Dismiss. Plaintiffs Opposition,

123 See id. at 11 (“evidence and argument will show cause for improper motive by the employer,
[ARRC], to suppress my free speech rights as well.”); id. at 16 (asserting that “the Director of
Labor Relations, Debra English, rescinded Plaintiffs access to the ARRC property” and that “Shelt
refused to intervene or resolve the wrongful action by Director of Labor Relations”).
124

Dkt. 40 at 3,4.

125 Dkt. 54 at 5 (“Prayed is no casual member of the public, but a member of the [Union] and
sanctioned as a bono fide [s/c] candidate for president, access to the work environment and the
worker is not an unreasonable tenet assuring a fair election of union officers.”); id. (“Prayed was
previously employed by ARRC ....”).
126

Id. at 4.

127 See, e.g., Dkt. 31 at 5 (“This violation of a First Amendment right seemed by the Constitution
of the United States prohibits a fair election and undermines the welfare of the employees”); but
see also id. at 5-6 (“As specified by 29 U.S.C. § 401 with emphasis on subsection (b), first
amendment guarantees ... must prevail in our work environment.”).
24
Case 4:17-cv-00023‘TMB Document 66 Filed 07/31/19 Page 24 of 27

Plaintiff was no longer an employee of the ARRC when this occurred,132 but was still a Union
officer. Plaintiff does assert that he “was performing an investigation into a union grievance” for
another union member at the time, and also states that “Shelt refused to intervene or resolve the
wrongful action. »133 The Complaint, however, then goes on to describe events related to one of
Plaintiffs own grievance proceedings, and that “Shelt was exonerated of wrongdoing while
Plaintiff also notes procedural flaws fatal for an appropriate investigation. «134 No further
allegations indicate how the ARRC’s action could have been retaliatory, nor do they support or
explain why the Court should make the inference that the ARRC—an independent employer and
an entity separate from Union—took action in retaliation for some opposition to union policies.
Finally, Plaintiffs generalized contention that “[freedom of speech is abridged by the employer’s
restriction of access to the workers and the work environment,” which he argues is a “violation of
a First Amendment right” does not amount to a cause of action.135
Thus, absent specific factual allegations to support Plaintiffs conclusory assertions that his
building access was revoked wrongfully, Plaintiff does not state a claim against the ARRC.136

132 See Dkt. 31 at 13 (“On June 24th, 2015, the ARRC gave Notice of Voluntary Termination to
Mr. Prayed.”).
133 Id. at 16. No facts provided by Plaintiff support the inference that Plaintiffs participation in the
grievance process—an ordinary responsibility of union officers—amounts to “‘disagreement with
the union’s leadership” as required to state a claim under the LMRDA. See Casumpang, 269 F.3d
at 1058.
134 Id. Similarly, Plaintiffs broad contention that “[i]f ARRC’s Director of Labor Relations can
abuse her power of office in the course of a sanctioned union grievance and rescind access without
dialogue and in hubris to the union officer, then mature dialogue about the employer with the
employees... will not be possible[,]” also does not amount to a viable claim. Id.
135 Dkt. 31 at 5.
136

Sprewell v. Golden State Warriors, 266 F.3d 979,988 (9th Cir. 2001) (noting that, in evaluating
a motion to dismiss for failure to state a claim pursuant to Fed. R. Civ. P. 12(b)(6), the Court “need
not, however, accept as true allegations that contradict matters properly subject to judicial notice

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 26 of 27

Plaintiff has not provided factual allegations that would give rise to a claim for a violation of his
right to free speech under the LMRDA, nor does Plaintiff identify any other action by the ARRC,
or its employees, that would give rise to any other cause of action.
Accordingly, the Motion to Dismiss at docket 39 is GRANTED. Moreover, because the
Court finds that further amendment would be futile, Plaintiff’s claims against the ARRC are
DISMISSED WITH PREJUDICE.
V.

CONCLUSION

For the foregoing reasons, IT IS HEREBY ORDERED that the Motion to Strike at
docket 62 is DENIED, and the Motions to Dismiss at docket 36, 39, and 41 are GRANTED.
Plaintiffs claims are DISMISSED WITH PREJUDICE in their entirety. The Clerk of the
Court is directed to close this case.
IT IS SO ORDERED.

Dated at Anchorage, Alaska, this 31st day of July, 2019.
/s/ Timothy M. Bursess
TIMOTHY M. BURGESS
UNITED STATES DISTRICT JUDGE

or by exhibit... [n]or is the court required to accept as true allegations that are merely conclusory,
unwarranted deductions of fact, or unreasonable inferences.”).
27

Case 4:17-cv-00023-TMB Document 66 Filed 07/31/19 Page 27 of 27

